           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    SOCIAL SECURITY ADMINISTRATION
        EMPLOYEES ACTING AS
       REPRESENTATIVE PAYEES

      April 2008   A-06-07-17047




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                            SOCIAL SECURITY
MEMORANDUM

Date:      April 18, 2008                                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Social Security Administration Employees Acting as Representative Payees
           (A-06-07-17047)


           OBJECTIVES

           Our objectives were to determine whether (1) Social Security Administration (SSA)
           employees complied with representative payee requirements and (2) SSA controls
           prevented SSA employees acting as representative payees from inappropriately
           accessing beneficiaries’ records.

           BACKGROUND

           Some individuals cannot manage or direct the management of their benefits because of
           their youth or mental and/or physical impairments. Congress granted SSA the authority
                                                                                        1
           to appoint representative payees to receive and manage these beneficiaries’
                      2
           payments. A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance
           beneficiaries or Supplemental Security Income recipients when representative payment
           would serve the individual’s interests. Representative payees are required to

           •   use benefits to meet the beneficiary’s current and foreseeable needs and
               conserve/invest benefits not needed to meet those needs,

           •   maintain account records and provide SSA an annual representative payee report
               (RPR) that accounts for how benefits were spent or invested, and




           1
            We use the term “beneficiary” throughout this report in reference to both Old-Age, Survivors and
           Disability Insurance beneficiaries and Supplemental Security Income recipients.
           2
            The Social Security Act §§ 205(j)(1)(A) and 1631(a)(2)(A)(ii), 42 U.S.C. §§ 405(j)(1)(A) and
           1383(a)(2)(A)(ii).
Page 2 - The Commissioner


•     report events to SSA that may affect the beneficiary’s entitlement or benefit payment
      amount, including any changes in circumstances that would affect their performance
      as a representative payee. 3

An SSA employee may apply to be a representative payee for a minor child or
incapable individual. However, the employee may not take any formal or informal
action as an SSA employee in connection with the beneficiary’s claim, such as
participating in the development or prosecution of the beneficiary’s claim. An SSA
employee serving in this capacity is limited to filing for and/or receiving benefits on an
individual’s behalf. 4

According to SSA records, as of July 2007, 1,753 SSA employees were serving as
representative payees for 2,201 beneficiaries and/or recipients in current payment
status.

RESULTS OF REVIEW
Generally, SSA employees acting as representative payees complied with
representative payee requirements. A review of 200 randomly selected SSA
employees acting as representative payees revealed the employees properly reported
how benefits were used for beneficiaries on annual RPRs and informed SSA of
changes that impacted benefit payments.

While SSA did not implement controls to prevent SSA employees who are also
representative payees from processing transactions that updated payment records of
beneficiaries they served, SSA did implement controls to identify and alert management
when these transactions occurred. These controls appeared effective because we did
not identify any instances from January 2004 to September 2007 where an SSA
employee updated the payment record of a beneficiary for whom they served as a
representative payee. However, we did identify one instance where an employee
queried/viewed the payment record of the beneficiary he served. We also identified
administrative/recordkeeping issues that required attention.

SSA EMPLOYEE ACCESSED BENEFICIARY’S PAYMENT RECORD

Our review disclosed no instances from January 2004 to September 2007 where an
employee processed a transaction that updated the payment record of a beneficiary for
whom they served as a representative payee. However, we identified one instance
where an employee queried/viewed the payment record of the beneficiary he served.
Because the employee queried/viewed the payment record but did not process
transactions that updated the record, no alert was generated. SSA considers payment
record access improper when the employee knowingly accesses information about

3
    20 C.F.R. §§ 404.2035 and 416.635.
4
 SSA, Program Operations Manual System (POMS), GN 03980.070, SSA Employee as Applicant or
Representative Payee.
Page 3 - The Commissioner


himself/herself, a relative, a friend, a co-worker or a co-worker’s friend or relative.
Access is also improper when it is not related to official duties, such as "browsing"
                               5
another individual’s records.

We discussed this instance with personnel from the Philadelphia Region’s Center for
Security and Integrity (CSI). CSI personnel stated SSA systems do not incorporate
controls that identify or alert management to instances when SSA employees
query/view their beneficiaries’ payment records. We provided CSI personnel details of
this occurrence, and they are reviewing the situation. Because we found this type of
improper access rarely occurred, the cost of implementing controls to prevent/identify
this access may outweigh the potential benefits.

ADMINISTRATIVE AND RECORDKEEPING ISSUES

Review of SSA records involving the 1,753 SSA employees and the beneficiaries they
served identified 3 administrative issues that required attention.

Address Changes         Address differences that indicated considerable geographical
Not Reflected in        separation between SSA employees and beneficiaries they
SSA Records             served were not always reflected in SSA records. SSA policy
                        states it must determine the need for a successor payee when
the current payee becomes geographically separated from the beneficiary by a
considerable distance. 6 Our comparison of SSA Human Resource, Master Beneficiary
(MBR), and Supplemental Security Records’ (SSR) information identified six instances
where SSA employee addresses on payment records differed significantly from
addresses appearing in Human Resource data. Further analysis of the Representative
Payee System (RPS) indicated the employee worked in a different State over
180 miles 7 from the beneficiary.

                  Address Discrepancies That Indicate Considerable Geographic
                  Separation Between SSA Employee and Beneficiary They Serve
                Beneficiary Address Per SSA       Employee Address Per
                           Records                      SSA HR File                Distance
             Newark, NJ                       Pikesville, MD                          186 miles
             Jasper, AL                       Churchville, MD                         850 miles
             Bellwood, IL                     Florence, SC                            888 miles
             Chicago, IL                      Kissimmee, FL                         1,167 miles
             Castro Valley, CA                American Samoa**                      4,778 miles
             San Mateo, CA                    American Samoa**                      4,778 miles
             **Same SSA employee is representative payee for both beneficiaries.
To illustrate, SSA records for a beneficiary in Castro Valley, California, indicated the
representative payee (an SSA employee) had a San Francisco, California, mailing
5
    Revisions to Sanctions for Unauthorized Systems Access Violations March 2, 2000, pp. 1 and 3.
6
    SSA, POMS, GN 00504.100.A.1 and 2, Determining the Need for a Successor Payee.
7
 SSA policy does not define considerable distance. For this review, we considered 180 miles, or
approximately 3 hours of drive time to be a considerable distance.
Page 4 - The Commissioner


address. However, SSA Human Resource information indicated the employee actually
lives and works in Pago Pago, American Samoa. This large, and apparently unreported
geographical separation raises the question whether the representative payee can
properly ensure the beneficiary’s needs were being met.

SSA Could Not         SSA could not locate RPRs for all beneficiaries in our review.
Locate RPRs           Representative payees are responsible for keeping records and
                      completing an RPR annually to report the use of each beneficiary’s
           8
payments. With limited exception, SSA is required to obtain an annual accounting
from all representative payees. 9 SSA is required to review the RPRs and maintain
scanned copies at the Wilkes-Barre Data Operations Center (WBDOC) for between
2 and 7 years. 10

We requested the WBDOC provide the most recently completed RPRs for a random
sample of 200 SSA employees who served as representative payees for
239 beneficiaries. The WBDOC could not locate 42 of 239 RPRs.

The Mid-America Program Service Center (PSC) has jurisdiction over 12 of the missing
RPRs. Through discussion with PSC staff, we determined the PSC actually received
10 of the 12 missing reports and initiated follow-up action with representative payees to
obtain the other 2 reports. PSC staff could not explain why WBDOC could not locate
reports. This indicates a high percentage of the missing reports were likely received by
SSA, but for some reason were either not transmitted to or were misfiled at the
WBDOC. The lack of availability of these reports limits SSA’s ability to ensure its
employees met their representative payee reporting responsibilities.

Other Discrepancies                 We identified inconsistencies between SSA employee
Between RPS Data and                and payee information appearing on various SSA
SSA Records                         records.

•     We found 11 instances where representative payee information on the MBR, SSR,
      Numerical Identification, annual RPR, or Request to be Selected as Payee
      (SSA-11 Form) did not match data reported in the RPS.

•     We found one instance where an SSA employee identified as a representative
      payee on the representative payee line of the MBR was no longer the representative
      payee for the beneficiary.

We provided SSA with details on discrepancies noted and requested it make the
necessary corrections.

8
    SSA, POMS, GN 00605.001.B.1, Overview of Annual Representative Payee Accounting.
9
    SSA,POMS, GN 00605.090.A, Payee Fails to Account.
10
  SSA, POMS, GN 00605.055.A, Retaining Completed Representative Payee Reports; and GN
00605.060.A, Reviewing the Accounting Reports.
Page 5 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
We determined that SSA employees acting as representative payees for beneficiaries
in current pay status generally complied with representative payee requirements. We
identified no instances over the past 3 years where an SSA employee processed a
transaction that updated their beneficiary’s payment record, and identified only one
instance over the past 3 years where an employee queried/viewed their beneficiary’s
payment record. We also identified administrative/recordkeeping issues that required
attention.

We recommend that SSA:

1. Assess the continued suitability of the SSA employee representative payees who
   are geographically separated from the beneficiaries they serve.

2. Correct SSA records/RPS for instances where representative payee information on
   SSA records do not match the RPS.

AGENCY COMMENTS
SSA agreed with our recommendations. SSA also provided information regarding
recent action taken to improve RPR recordkeeping. The Agency’s comments are
included in Appendix C.




                                           Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                               Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
CSI      Center for Security and Integrity
MBR      Master Beneficiary Record
OIG      Office of the Inspector General
POMS     Program Operations Manual System
PSC      Program Service Center
RPR      Representative Payee Reports
RPS      Representative Payee System
SSA      Social Security Administration
SSR      Supplemental Security Record
U.S.C.   United States Code
WBDOC    Wilkes-Barre Data Operations Center
                                                                     Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed the Social Security Act and Social Security Administration (SSA) policies
    and procedures pertaining to representative payees.

•   Reviewed SSA’s controls over SSA employees acting as representative payees
    accessing their beneficiary’s records.

•   Reviewed data in SSA systems including Representative Payee System, Numident,
    Master Beneficiary (MBR), and Supplemental Security Records (SSR).

•   Interviewed SSA Headquarters staff regarding procedures used when an SSA
    employee acts as a representative payee.

•   Reviewed relevant reports issued by the Office of the Inspector General and
    Government Accountability Office.

•   Identified 1,753 SSA employees acting as representative payees for
    2,201 beneficiaries in current pay status. For each of these 1,753 SSA employees,
    we reviewed the following.

     Employee’s personal identification number in the Modernized Title II Claims
      System, Modernized Supplemental Security Income Claims System and Audit
      Trail System to determine whether employee accessed their beneficiary’s
      records.

     Beneficiaries’ SSR to determine whether any representative payee received a
      fee for their service.

     Relationship of SSA employee and beneficiary to determine non-related
      employees.

     Numident to determine whether beneficiary was deceased.

     Date of entitlement and date of enumeration to determine which beneficiaries
      were enumerated within a 12-month period.




                                          B-1
     SSA employee address on January 2007 Human Resource file and address on
      MBR/SSR to determine whether beneficiary resided in a different State over
      180 miles (which we based on a 3-hour drive) from the SSA employee’s address.

•   Performed the following test for 200 randomly selected SSA employees.

     Reviewed the Representative Payee Reports to determine whether the SSA
      employees acting as representative payees properly reported to SSA how
      benefits were used.

     Reviewed SSA records to determine whether the SSA employees acting as
      representative payees effectively reported changes that may affect benefit
      payments.

We performed our audit between May and October 2007 at SSA’s Regional Office in
Dallas, Texas. We did not test the general or application controls of SSA systems that
generated electronic data used for this audit. Instead, we traced selected transactions
to source documents and performed other validation tests and found the data to be
sufficiently reliable to meet our audit objectives. The entity audited was the Office of
the Deputy Commissioner for Operations. We conducted this audit in accordance with
generally accepted government auditing standards.




                                           B-2
                  Appendix C

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      April 08, 2008                                                         Refer To:   S1J-3

To:         Patrick P. O'Carroll, Jr.
            Inspector General

From:       David V. Foster      /s/
            Chief of Staff

Subject:    Office of the Inspector General (OIG) Draft Report, “Social Security Administration Employees
            Acting as Representative Payees” (A-06-07-17047)--INFORMATION

           We appreciate OIG’s efforts in conducting this review. Our comments on the recommendations
           are attached.

           Please let me know if we can be of further assistance. Staff inquiries may be directed to
           Ms. Candace Skurnik, Director, Audit Management and Liaison Staff, at (410) 965-4636.


           Attachment




                                                          C-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
REPORT, “SOCIAL SECURITY ADMINISTRATION EMPLOYEES ACTING AS
REPRESENTATIVE PAYEES” (A-06-07-17047)

Thank you for the opportunity to review and provide comments on this draft report. We
recognize the importance of our employees complying with representative payee (Rep Payee)
requirements. We also acknowledge that there should be controls to prevent employees acting as
Rep Payees from inappropriately accessing beneficiaries' records.

Recommendation 1
Assess the continued suitability of the SSA employee Rep Payees who are geographically
separated from the beneficiaries they serve.


Comment

We agree. We will address all suitability issues when we conduct our Rep Payee reviews.


Recommendation 2

Correct SSA records and the Representative Payee System (RPS) for instances where Rep Payee
information on our records do not match the RPS.

Comment
We agree. We will correct records as appropriate to ensure that our records match the RPS.


Other Comment
Page 4 presents a brief discussion regarding 42 Representative Payee Reports that could not be
located by the Wilkes-Barre Data Operations Center (WBDOC). To address this issue, in July
2007, SSA initiated a number of targeted actions aimed at safeguarding these forms and the
information contained on them. Now, under current procedures, all rep payee accounting forms
are scanned at the WBDOC upon receipt and the response data are carefully stored in a
designated database. In addition, exact images of the forms are stored in a separate database, the
Non-Disability Repository. Having the data from the forms stored in one system, and the exact
images stored in a separate, easily accessible system, should greatly reduce the possibility of this
type of information being lost in the future.




                                                 C-2
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director, Dallas Audit Division, (214) 767-6620

   Jason Arrington, Audit Manager, (214) 767-1321

Acknowledgments

In addition to those named above:

   Wanda Renteria, Auditor

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-06-07-17047.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                     Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of
Investigations (OI), Office of the Chief Counsel to the Inspector General (OCCIG), Office of External
Relations (OER), and Office of Technology and Resource Management (OTRM). To ensure compliance
with policies and procedures, internal controls, and professional standards, the OIG also has a
comprehensive Professional Responsibility and Quality Assurance program.
                                            Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs
and operations and makes recommendations to ensure program objectives are achieved effectively and
efficiently. Financial audits assess whether SSA’s financial statements fairly present SSA’s financial
position, results of operations, and cash flow. Performance audits review the economy, efficiency, and
effectiveness of SSA’s programs and operations. OA also conducts short-term management reviews and
program evaluations on issues of concern to SSA, Congress, and the general public.
                                       Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and
operations. This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA
employees performing their official duties. This office serves as liaison to the Department of Justice on
all matters relating to the investigation of SSA programs and personnel. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.
                    Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCCIG also advises the IG on investigative procedures
and techniques, as well as on legal implications and conclusions to be drawn from audit and investigative
material. Also, OCCIG administers the Civil Monetary Penalty program.
                                    Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news
releases and in providing information to the various news reporting services. OER develops OIG’s media
and public information policies, directs OIG’s external and public affairs programs, and serves as the
primary contact for those seeking information about OIG. OER prepares OIG publications, speeches,
and presentations to internal and external organizations, and responds to Congressional correspondence.
                       Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also
coordinates OIG’s budget, procurement, telecommunications, facilities, and human resources. In
addition, OTRM is the focal point for OIG’s strategic planning function, and the development and
monitoring of performance measures. In addition, OTRM receives and assigns for action allegations of
criminal and administrative violations of Social Security laws, identifies fugitives receiving benefit
payments from SSA, and provides technological assistance to investigations.
